                 U.S. Department of Agriculture

                    Office of Inspector General
                           Great Plains Region




       Audit Report

     Farm Service Agency
Price Support Loan Application




                     Report No. 03099-195-KC
                             September 2005
Executive Summary
Farm Service Agency Price Support Loan Application
(Audit Report No. 03099-195-KC)

Results in Brief    This report presents the results of our audit of the price support loan
                    application within the Farm Service Agency’s (FSA) Automated Price
                    Support System (APSS). Our overall objective was to assess whether
                    the FSA had adequate management, security, and programming
                    controls over its price support loan application. The FSA relies on the
                    APSS to make and service commodity loans and loan deficiency
                    payments, a critical function of the Commodity Credit Corporation’s
                    mission to stabilize, support, and protect farm income and prices.

                    Overall, we found that FSA had generally implemented sufficient
                    controls to ensure the integrity of the price support loan application
                    system. However, our audit identified areas where improvements were
                    warranted regarding application programming, access, and security.
                    Specifically, we found that:

                    •   weaknesses existed in several automated checks used to validate
                        data in the price support loan application;

                    •   controls over logical access, including passwords to its price
                        support loan application, did not assure adherence to federal
                        guidance because employees were required to divulge their
                        passwords, and password intervals were not properly set;

                    •   a lack of controls existed over transmission of data without the
                        appropriate security measures;

                    •   incomplete risk assessment documentation existed for the price
                        support loan application; and

                    •   contingency plans did not describe the expected recovery actions
                        to be taken by county offices.

Recommendations
In Brief            We recommend that the FSA:

                    •   conduct a detailed analysis of the adequacy of the key validation
                        controls for the price support application;

                    •   develop and document validation controls to mitigate the specific
                        weaknesses determined;

USDA/OIG-A/03099-195-KC                                                             Page i
                   •   revise FSA direction on logical access control guidance to be
                       consistent with Departmental requirements;

                   •   ensure that employees who have made their passwords and user
                       identifications available to others obtain passwords and user
                       identifications in accordance with Departmental security guidance;

                   •   consult with Office of the Chief Information Officer (OCIO) and
                       implement adequate security to ensure that all sensitive data is
                       transmitted securely in accordance with applicable requirements;

                   •   conduct sufficient reviews of risk assessments to establish that all
                       relevant information has been documented and considered as part
                       of the assessment’s development (e.g., network topology, list of
                       system personnel, and connected applications) prior to acceptance
                       of the work and payment; and

                   •   revise contingency plans for county offices that will provide the
                       achievable processes to be followed for continued operation if an
                       emergency arises and establish oversight of the plans.


FSA Response       In its August 1, 2005, written response to the draft report, FSA
                   concurred with the findings and recommendations in the report, and
                   provided timeframes for completing many of corrective actions.

OIG Position       We agree with management decision for Recommendations 1, 2, 3, 4,
                   and 6. The management decision for Recommendation 5 is contingent
                   upon the pending Office of the Chief Information Officer decision
                   regarding the waiver of Departmental requirements. If a waiver is not
                   granted, then a corrective action plan and applicable timeframes are
                   needed. For Recommendation 7, additional clarification is needed on
                   when the updated contingency plan instructions will be provided to
                   county offices and the procedures to provide oversight of the plans to
                   ensure that they accurately describe expected actions.




USDA/OIG-A/03099-195-KC                                                             Page ii
Abbreviations Used in This Report


ADP            Automated Data Processing
APSS           Automated Price Support System
C&A            Certification and Accreditation
CCC            Commodity Credit Corporation
CS             Cyber Security
DM             Departmental Manual
DR             Departmental Regulation
FSA            Farm Service Agency
ID             Identification
IT             Information Technology
ITS            Information Technology Services
ITSD           Information Technology Services Division
NIST           National Institute of Standards and Technology
OCFO           Office of the Chief Financial Officer
OCIO           Office of the Chief Information Officer
OIG            Office of Inspector General
OMB            Office of Management and Budget
PSD            Price Support Division
RA             Risk Assessment
USDA           United States Department of Agriculture




USDA/OIG-A/03099-195-KC                                         Page iii
Table of Contents

Executive Summary ....................................................................................................................... i

Background and Objectives ......................................................................................................... 1

Findings and Recommendations.................................................................................................. 3

    Section 1 Application Programming ...................................................................................... 3

        Finding 1            FSA Lacks Assurance that Price Support Loan Application is
                             Correctly Programmed to Validate Data....................................................... 3
                                 Recommendation 1 ................................................................................ 4
                                 Recommendation 2 ................................................................................ 5

    Section 2. Application Access ................................................................................................. 7

        Finding 2            Logical Access Controls Security Needs Strengthening............................... 7
                                 Recommendation 3 ................................................................................ 8
                                 Recommendation 4 ................................................................................ 9
        Finding 3            Remote Access Security Needs Strengthening ............................................. 9
                                 Recommendation 5 .............................................................................. 10

    Section 3. Documentation ..................................................................................................... 12

        Finding 4            Inadequate Risk Assessment Documentation ............................................. 12
                                 Recommendation 6 .............................................................................. 13
        Finding 5            Contingency Plans Need Revision .............................................................. 13
                                 Recommendation 7 .............................................................................. 14

Scope and Methodology.............................................................................................................. 16

Exhibit A – FSA Response ......................................................................................................... 17




USDA/OIG-A/03099-195-KC                                                                                                         Page iv
Background and Objectives
Background         Application controls are the structure, policies, and procedures that
                   apply to separate, individual application systems. An application
                   system is typically a collection or group of individual computer
                   programs that relate to a common function.             In the Federal
                   Government, some applications may be complex, comprehensive
                   systems, involving numerous computer programs and organizational
                   units, such as those associated with benefit payment systems.
                   Application controls can encompass both the routines contained within
                   the computer program code, and the policies and procedures associated
                   with user activities, such as manual measures performed by the user to
                   determine that data, was processed accurately by the computer.

                   Application controls help make certain that transactions are valid,
                   properly authorized, and completely and accurately processed by the
                   computer. In addition, general security controls and automated controls
                   built into the operating system that support the application should also
                   be considered. Weak controls that allow physical or logical access to
                   the computers that store application data could be used to circumvent
                   the controls established within the application itself.

                   The Commodity Credit Corporation (CCC) is a Government owned
                   corporation created in 1933 to stabilize, support, and protect farm
                   income and prices; to help maintain balanced and adequate supplies of
                   agricultural commodities, including products, foods, feeds, and fibers;
                   and to help in the orderly distribution of these commodities.
                   Management of the CCC is vested in a board of directors, subject to the
                   general supervision and direction of the Secretary of Agriculture. The
                   activities of the CCC are carried out mainly by the personnel and
                   through the facilities of the Farm Service Agency (FSA) and its State
                   and county committees. There are 51 FSA State offices and about
                   2,500 U.S. Department of Agriculture (USDA) Service Centers.
                   Additionally, the FSA maintains field office personnel in Kansas City
                   and St. Louis, Missouri, and Salt Lake City, Utah.

                   Various laws have emphasized the need to protect agencies’ sensitive
                   and critical data, including the Privacy Act of 1974, the Federal
                   Information Security Management Act of 2002, and the Paperwork
                   Reduction Act of 1995. Departmental responsibilities were recently
                   reemphasized in the Clinger-Cohen Act of 1996 and Presidential
                   Decision Directive 63, “Policy on Critical Infrastructure Protection.”
                   Additionally, the Government Information Security Reform Act was
                   enacted on October 30, 2000. This Act codified the existing
                   requirements of the Office of Management and Budget’s (OMB)
USDA/OIG-A/03099-195-KC                                                             Page 1
                   Circular A-130, Appendix III, Security of Federal Automated
                   Information Resources. Computer security at USDA is addressed in
                   Departmental Manual (DM) 3140-1, Management Automated Data
                   Processing (ADP) Security Manual, and various Departmental
                   Regulations (DR). Additionally, the FSA has issued certain security
                   guidelines in a series of IRM Handbooks.

                   FSA uses a software application called the Automated Price Support
                   System (APSS) to carryout the CCC marketing assistance loan
                   program. The price support loan application is software within the
                   APSS that facilitates marketing assistance loans provided to producers
                   at harvest time, or after, to meet cash flow needs without having to sell
                   their commodities when market prices are typically at harvest-time
                   lows. Marketing loans allow producers to store production at harvest
                   facilities and market their commodities throughout the year. Marketing
                   assistance loans for covered commodities are pledged as loan collateral,
                   and producers have the option of delivering the pledged collateral to the
                   CCC as full payment for the loan at maturity. Market loan repayment
                   provisions specify, under certain circumstances, that producers may
                   repay loans at less than principal plus accrued interest and other
                   charges. For crop year 2002, FSA/CCC processed 176,000 loans that
                   totaled about $7.5 billion.

                   The APSS was developed to completely record county office data for
                   the marketing loan assistance and loan deficiency payments made to
                   producers. The APSS is comprised of a distributed data processing
                   system that provides field offices the capability to make and service
                   commodity loans and loan deficiency payments and a reporting and
                   accounting feeder system that provides centralized tracking of all loan
                   detail (transactions) and summary reporting capabilities. The price
                   support loan application calculates the commodity loans, prepares loan
                   documents and disbursements, provides for repayments, transfers,
                   forfeitures, settlements, establishes receivables, and calculates interest
                   charges. The system interfaces with accounting, inventory and
                   production adjustment applications, and summarized data files are
                   transmitted from the county and State offices on a daily or weekly
                   basis for use in preparation of national level reports.
                   The USDA Office of Inspector General (OIG), conducted nationwide
                   audits of selected USDA agencies to assess overall application
                   controls of their computer systems to ensure the confidentiality,
                   integrity, and availability of information. The FSA was one of the
                   agencies selected for review.

Objectives         The objective of this audit was to determine if FSA had adequate
                   management, security, and programming control over its price support
                   loan application.
USDA/OIG-A/03099-195-KC                                                              Page 2
Findings and Recommendations
Section 1 Application Programming



Finding 1          FSA Lacks Assurance that Price Support Loan Application
                   is Correctly Programmed to Validate Data

                   The price support loan application lacks several automatic checks to
                   validate critical information that is used to make loan decisions. For
                   example, the application should filter out loan requests that are made
                   after the final date that a loan is available, but our testing showed it
                   would allow loans to be made up to 2 months after this date has passed.
                   However, we were unable to determine why these checks have not been
                   incorporated into the application because FSA has not adequately
                   recorded and retained documentation showing the changes it has made
                   to the system through the years and FSA officials could not otherwise
                   provide any information to explain the omissions. The application may
                   have lacked these checks in its original programming, or the agency
                   may have removed the checks in subsequent updates. In either case,
                   without documentation tracking the history of changes made to the
                   application, the agency cannot be assured that changes made to the
                   system are authorized and accurate.

                   Federal standards mandate that data within computer systems must be
                   validated continuously, which involves determining if it is accurate,
                   complete, consistent, and reasonable (Federal Information Processing
                   Standards 73). To accomplish this goal, agencies incorporate automatic
                   validation controls that restrict users from entering predictably invalid
                   data (e.g., wrong State codes), changing critical data (e.g., Federal loan
                   interest rates), superceding established timeframes (e.g., submitting a
                   loan request past the due date), and so on.

                   As users discover validation weaknesses in an application, agencies
                   update the automatic controls to fix the problem. DM 3200-001 holds
                   that changes made to major applications should be maintained
                   throughout the life cycle of that system. Chapter 1.6 calls complete and
                   accurate documentation of major application systems “essential.” More
                   specifically, chapter 2.8 requires that managers maintain documentation
                   related to the development, operation, and maintenance of an
                   application throughout its use by an agency. DM 3200-002 also
                   requires agencies to document software changes.




USDA/OIG-A/03099-195-KC                                                               Page 3
                   Our tests determined several validation weaknesses in FSA’s price
                   support loan application. In our tests at the FSA test site, the
                   application:

                   •      Accepted crop loans 2 months after the final loan availability
                          date for a given crop,

                   •      Permitted users to change interest rate tables, established yield
                          tables, and service fees, which are critical to determining loan
                          parameters,

                   •      Prevented users from entering accurate information (e.g., test
                          crop weights ending in 50 were not accepted by the system).
                          For example, while entering a loan, a test weight of 250 was
                          entered but the computer would not accept this number so a test
                          weight of 300 was entered and accepted by the system. We
                          tested various test weight numbers in increments of “50” (i.e.,
                          150, 250, 350, etc) and found these would not be accepted by
                          the system.

                   •      Changed information input by the user (e.g., an entry of
                          2.56 bushels per acre was changed to 3156, and ‘K’ entered as a
                          response to a yes (Y) or no (N) question was taken as a no (N)),
                          and

                   •      Allowed inaccurate State codes to be entered.

                   Proposed changes to FSA’s price support loan application go through
                   an appropriately rigorous process of development and testing before
                   they are implemented throughout the agency. The agency, though, has
                   not kept track of all the changes that it has made to validation controls.
                   It also has not compiled the updates as they are released. This lack of
                   documentation may lead to the agency undoing preceding
                   programming changes designed to enhance the validation controls
                   within the application. Any or all of the weaknesses identified above,
                   for example, may have developed from conflicts between programming
                   changes. Alternately, implemented validation controls may have been
                   incorrectly removed if an older software update was re-released,
                   in effect returning the application to an earlier, less effective version.
                   The correction of these individual weaknesses could enhance the
                   overall strength of the application’s automatic validation control.

Recommendation 1

                   Conduct a detailed analysis of the adequacy of the key validation
                   controls for the price support application.
USDA/OIG-A/03099-195-KC                                                               Page 4
Recommendation 2

                   Develop and document validation controls to mitigate the specific
                   weaknesses cited above and those identified during the detailed
                   analysis.

                   FSA Response.

                   In its August 1, 2005, response, FSA concurred with
                   Recommendations 1 and 2, and the Price Support Division (PSD)
                   conducted a preliminary detailed review and analysis specific to the
                   weaknesses addressed in Finding 1. Of the weaknesses cited, PSD
                   developed a validation control to accept a marketing assistance loan
                   application within the final loan availability period applicable to the
                   crop. This software enhancement will be released in county Release
                   568 and was scheduled to be released on July 25, 2005.

                   PSD analysis found one screen where the alpha, other then “Y” or “N”
                   was permitted to a question requiring a yes or no response. PSD will
                   issue a user requirement to request an enhancement to this validation.
                   The user requirement will be completed by August 31, 2005.

                   FSA also stated that they found through their analysis that APSS does
                   validate against test weight that is not applicable to a specific
                   commodity.

                   Human interaction is required for the remaining weaknesses cited in the
                   audit which make an automated validation impossible. However, PSD
                   will issue a directive to the State and county offices reminding them of
                   the procedure for maintaining table files and to ensure program
                   validations are correctly applied.

                   FSA is in the beginning stages to develop a web based eLOAN
                   application process via the internet. When this is completed, the APSS
                   will not be needed to support marketing assistance loans. The user
                   requirement was issued to address this project on June 26, 2005. A
                   more in-depth validation system will be implemented with this process
                   in all activities pertaining to all programs currently used by APSS.

                   Because all resources are assigned to the eGOV initiatives, any
                   additional enhancements in APSS may he prohibited, as directed by
                   FSA Administration and the Information Technology Services Division
                   (ITSD). However, FSA will make every attempt to ensure that
                   validations remain a top priority in development of software. FSA’s

USDA/OIG-A/03099-195-KC                                                             Page 5
                   response shows that the target date for completing final action is
                   August 31, 2005.

                   OIG Position.

                   We clarified what information was tested in the bullet shown above
                   regarding test weight numbers in increments of “50” (150, 250, 350)
                   and performed additional testing for corn and wheat using a test weight
                   of 50. We found that the APSS should not and does not allow a 50 test
                   weight for wheat in all grades (1-5) and correctly does allow a 50 test
                   weight for corn. Therefore, we accept management decision for
                   Recommendations 1 and 2. For final action, FSA will need to report to
                   the Office of the Chief Financial Officer (OCFO) that the proposed
                   actions have been accomplished.




USDA/OIG-A/03099-195-KC                                                            Page 6
Section 2. Application Access



Finding 2                             Logical Access Controls Security Needs Strengthening

                                      FSA does not have adequate control over logical access to its price
                                      support loan application. 1 FSA direction inappropriately requires
                                      employees to divulge their passwords to other employees, and systems
                                      are not set to adequately restrict access. With loose control over
                                      passwords and protective steps not taken, the price support loan
                                      application becomes vulnerable to unauthorized use and FSA becomes
                                      less capable of establishing accountability for that misuse.

                                      According to National Institute of Standards and Technology (NIST)
                                      800-12, if passwords are used for authentication, organizations should
                                      teach users not to use easy-to-guess passwords, not to divulge their
                                      passwords, and not to store passwords where others can find them. 2

                                      Counter to these requirements, agency, State, and county guidance
                                      direct employees to make their passwords available to other employees
                                      for administrative purposes. FSA’s handbook of computer operations
                                      directs field offices to print and store user identifications and
                                      passwords. 3 Also,

                                       •          a State office notice required all county offices in a State to
                                                  send master security user identifications (ID) and passwords to
                                                  the State office. 4 Employees at the State office share these
                                                  master security ID and passwords and,

                                       •          another FSA county office required all its employees to provide
                                                  their passwords to another employee who locks these passwords
                                                  in a safe. For example, if someone tampers with the application
                                                  using employee A’s password, but employee B also has access
                                                  or knows the password, it will be difficult to establish which
                                                  employee damaged the system.

                                       •          The password change interval is set at 90 days on the operating
                                                  system. Cyber Security (CS) requires passwords for all
                                                  systems, applications or processes to be changed every 60 days

1
  Logical access is the ability that users have to use, change, or view a computer system. To control that access means to restrict their ability to
interact with the system. Logical access controls can be built into the operating system (e.g., automatically logging a user out after a period of
inactivity), or incorporated into the applications that run on that system (e.g., passwords) (NIST 800-12 ch. 17).
2
  NIST 800-14, “Generally Accepted Principles for Securing IT Systems,” Sept. 1996, sect. 3.11.3.
3
  FSA Handbook 2-IRM, “Computer Operations for the GSS A and B,” May 29, 2003, para. 281.F(5).
4
  MO Notice IRM-36, “ADP Password Changes,” December 8, 2003, Exhibit 3.
USDA/OIG-A/03099-195-KC                                                                                                                  Page 7
                                                  for general users. Passwords issued to system administrators,
                                                  system managers, and software engineers or those that are used
                                                  for dial-in access are to be changed every 30 - 45 days. 5 By
                                                  leaving the passwords the same for longer than recommended,
                                                  the agency increases the risk that an unauthorized user will gain
                                                  and retain access to the application.

                                         •        In two county offices we visited, the computers did not
                                                  automatically logout the user after a period of inactivity.
                                                  Leaving open conduits into the application makes the
                                                  application vulnerable to tampering and enhances the risk of
                                                  exposing sensitive information to unauthorized access.

                                       Combined, these logical access control weaknesses increase FSA’s
                                       price support loan application vulnerability to misuse. Should an
                                       unauthorized user exploit these weaknesses, FSA’s ability to establish
                                       accountability will be hampered since employees will have access to
                                       other employees’ passwords.

Recommendation 3

                                       Revise FSA direction on logical access control guidance to be
                                       consistent with Departmental requirements. Revise agency, State, and
                                       county directives to instruct FSA employees on new password
                                       requirements implemented and to properly safeguard master security
                                       IDs and passwords.

                                       FSA Response.

                                       In its August 1, 2005, response, FSA agreed with the recommendation.
                                       Also, FSA Handbook 2-IRM will be revised to direct users to change
                                       their passwords every 60 days and to not include passwords when
                                       preparing a list of User IDs. A notice will be issued directing State and
                                       County personnel to update all local directives to comply with these
                                       changes. Also, ITSD plans to implement these corrective actions
                                       before October 1, 2005.

                                       OIG Position.

                                       We accept management decision for Recommendation 3. For final
                                       action, FSA will need to report to the OCFO that the proposed actions
                                       have been accomplished.



5
    CS-13, “Passwords,” Chapter 6 Part 5, “Controlled Access Protection (C2)”, March 6, 2002, sect 2.
USDA/OIG-A/03099-195-KC                                                                                     Page 8
Recommendation 4

                                          Ensure that employees who have made their passwords and IDs
                                          available to others obtain new unique passwords and user IDs. Set
                                          computer system password and workstation logout controls, as
                                          required, by Departmental security guidance.

                                          FSA Response.

                                          In its August 1, 2005, response, FSA indicated that user passwords will
                                          be changed according to the 60 day cycle. Any employees who have
                                          made their passwords and ID’s available to others will be instructed to
                                          reset their passwords and not share their ID’s or passwords with others.
                                          Every employee will have a unique ID with a password known only to
                                          the employee. It is not feasible to issue new user ID’s. The User IDs
                                          have been stored in numerous audit trail files. The new User ID would
                                          start out as a completely new user with no way to link the new User ID
                                          to the activities of the old User ID.

                                          The IBM S/36 does not have an option to logout a user after a specified
                                          time. If a disconnection is forced from a higher level (network or
                                          AS/400 hosting system), the hard termination of a users session can
                                          cause data corruption in many of our applications. The S/36 does not
                                          have a database management system with commit/rollback capabilities.
                                          If a user is in the middle of a transaction and their session gets
                                          terminated, half of a transaction may be recorded. Implementing a
                                          forced disconnection would present a larger risk than the one we would
                                          he trying to mitigate. Also, ITSD will instruct employees to change
                                          their passwords by the end of the Fiscal Year (or sooner).

                                          OIG Position.

                                          We accept management decision for Recommendation 4. For final
                                          action, FSA will need to report to the OCFO that the proposed actions
                                          have been accomplished.




Finding 3                                 Remote Access Security Needs Strengthening

                                          FSA does not have adequate control over external access to information
                                          contained within its price support loan application. FSA management
                                          did not institute security controls that were capable of encrypting 6 data
                                          in some locations because they believed the cost was too high, and the

6
    Encryption is the process of disguising information or data so that it is unintelligible to an unauthorized person.
USDA/OIG-A/03099-195-KC                                                                                                   Page 9
                                     encryption, or other security transmission measures, significantly slow
                                     the transmission through the transmission method used to an
                                     unacceptable level. This decision left the data at risk of being
                                     compromised.

                                     We found that about 155 of 2,500 FSA service centers do not encrypt
                                     information before transmitting it to FSA’s main computer system.
                                     The 155 service centers transmitted sensitive information, including
                                     information on about 2,600 loans, totaling $163 million made for crop
                                     year 2002 using an inappropriate method. Without encryption or other
                                     security transmission measures, sensitive information is not adequately
                                     protected. USDA standards 7 state that all USDA ADP installations
                                     should protect sensitive data by use of file level passwords, read/write
                                     locks, and/or encryption. These same standards 8 advocate that all
                                     USDA ADP installations consider encrypting sensitive data to protect it
                                     while being transmitted via telecommunications. In addition, DM
                                     3550-002 9 now clarifies that sensitive, but unclassified information,
                                     transmitted by frame relay, is to be encrypted.

                                     FSA has neither required that the county offices submit their data
                                     securely, nor replaced the transmission method to allow encryption to
                                     be utilized for these 155 locations. Agency officials indicated that they
                                     believed the cost to switch to a transmission method that enables
                                     encryption to be acceptably used was prohibitive, based on the small
                                     activity level in these locations.

Recommendation 5

                                     Consult with the Office of the Chief Information Officer (OCIO) and
                                     implement adequate security to ensure that all sensitive data is
                                     transmitted securely, in accordance with Departmental and federal
                                     encryption requirements and update agency procedures, as needed.

                                     FSA Response.

                                     In its August 1, 2005, response, FSA indicated that the majority of FSA
                                     service centers encrypt data before transmission to FSA’s central
                                     computer systems. Approximately 155 service centers are currently
                                     unable to use Virtual Private Network conduits to transmit their data
                                     with encryption. These are small, low volume service centers. Given
                                     the current budget constraints and possible future office consolidations,
                                     as well as current efforts to migrate existing AS/400 applications to a
                                     central web environment, it is not cost effective to dedicate resources to

7
  DM 3140-1, Management ADP Security Manual, section 15 (b).
8
  DM 3140-1, Management ADP Security Manual, section 18.
9
  DM 3550-002, Sensitive but Unclassified Protection Information, chapter 10, part 2, table 3 dated February 17, 2005.
USDA/OIG-A/03099-195-KC                                                                                                  Page 10
                   implement this type of security for 155 low volume sites. FSA is
                   consulting with OCIO’s Information Technology Services (ITS) on this
                   issue. ITS, which is now responsible for FSA’s Information Technology
                   (IT) infrastructure, is looking into this issue and may request a waiver
                   to Departmental requirements in this area. Also, the FSA response
                   indicated that OCIO plans to submit a waiver request by
                   August 15, 2005.

                   OIG Position.

                   Management decision for Recommendation 5 is contingent on the
                   pending OCIO decision regarding the waiver of Departmental
                   requirements. If a waiver is not granted, a corrective action plan that
                   shows how the 155 sites will transmit data in accordance with
                   Departmental regulations and applicable timeframes is needed. For
                   final action, FSA will need to report to the OCFO that the proposed
                   actions have been accomplished.




USDA/OIG-A/03099-195-KC                                                            Page 11
Section 3. Documentation



Finding 4          Inadequate Risk Assessment Documentation

                   The documentation used by a contractor FSA hired to perform a risk
                   assessment for its price support loan application did not include all
                   relevant information to provide an accurate assessment. The contractor
                   did not include a network topology—essentially, a blueprint of the
                   computer network—that should have been reviewed prior to
                   determining the risks associated with the application, as well as
                   omitting other crucial information. FSA believed that the contractor
                   had this knowledge, but it did not pursue obtaining the documentation
                   from the contractor. As a result, FSA could not be assured that the
                   risks attributable to its mission-critical system have been considered
                   and that appropriate steps have been taken to mitigate these risks.

                   NIST guidance for a risk assessment of an IT system requires an
                   understanding of the system’s processing environment. To perform a
                   risk assessment, some system-related information must be collected. A
                   current network topology is one of the additional documents needed to
                   develop a knowledge of the environment and operations of the IT
                   system and its data.

                   We reviewed the assessment completed in May 2003, by FSA’s
                   contractor. The assessment lacked (1) a network topology, (2) a list of
                   APSS personnel (of which, the price support loan application is a part),
                   and (3) information about a database used to update information about
                   loans and loan deficiency payments made to producers. Instead, there
                   were blank highlighted sections that an FSA official indicated were for
                   FSA staff to insert specific names or information at some later date.

                   FSA’s risk assessments were in the process of being updated and
                   completed in support of the certification and accreditation requirements
                   at the time of our review. The documentation showed that as of
                   February 2004, no topology had been included in the assessment. In
                   March 2004, two FSA officials said that there was no network topology
                   available for FSA’s APSS and, by connection, the price support loan
                   application. In April 2004, FSA stated that one contractor had
                   performed the risk assessments for all of FSA’s computer systems and
                   should be familiar with the network topology. The FSA has recently
                   completed the certification and accreditation process and the topology
                   is now included.

USDA/OIG-A/03099-195-KC                                                            Page 12
Recommendation 6

                   Conduct sufficient reviews of completed risk assessments, and ensure
                   each risk assessment includes documentation establishing that all
                   needed elements have been considered as part of the assessment’s
                   development (e.g., network topology, list of system personnel, and
                   connected applications) prior to acceptance of the work and payment of
                   the contractor.

                   FSA Response.

                   In its August 1, 2005, response, FSA indicated that as part of the
                   Certification and Accreditation (C&A) process for the APSS
                   (completed September 2004), the risk assessment (RA) document was
                   updated to include all required elements. FSA follows current
                   Department of Agriculture C&A guidelines in reviewing the RA, and
                   FSA will work to ensure that all needed elements are contained in
                   future RA documents. Also, FSA has indicated they are already in
                   compliance with the recommendation; therefore, no further action is
                   needed.

                   OIG Position.

                   We accept management decision for Recommendation 6. For final
                   action, FSA will need to report to the OCFO that the corrective actions
                   have been accomplished.




Finding 5          Contingency Plans Need Revision

                   FSA’s contingency plans for county offices to continue operation of
                   their price support loan application, in the event of disaster, does not
                   reflect the expected recovery actions to be taken. Specifically, the
                   alternate sites designated to carry on operations did not have the
                   computing capacity to effect the application. In prior emergencies that
                   shut down an office’s application (e.g., tornadoes), FSA had sent
                   personnel and equipment to restore operations rather than following the
                   contingency plan procedures the agency put in place. These ad hoc
                   recoveries, however, are not explained or formalized within the county
                   offices’ written plans.

                   NIST 800-12 calls for agencies to plan how to keep their critical
                   functions operating in the event of disruptions as an essential element


USDA/OIG-A/03099-195-KC                                                           Page 13
                                    of contingency planning. 10 As the final step in planning, an agency
                                    must test the plan along several dimensions to make sure that it will
                                    work to continue operations. 11

                                    We reviewed the plans for three county offices to determine if they
                                    were sufficient to restore operations in the event of a disruption. Each
                                    of the offices had agreements with their neighboring county offices to
                                    run the application on their computers in cases of system failure. In all
                                    three cases, the offices’ computers, however, did not appear to have
                                    enough disk space to upload the neighboring office’s systems and
                                    continue to run their own workload as well. 12 According to disk space
                                    capacity reports, each office was using 57 percent of its own disk space
                                    for part of its operating system. Consequently, running the systems of
                                    two offices together might exceed the disk space available.

                                    In one State office, FSA officials acknowledged that some parts of the
                                    contingency plans could be improved. In two other State offices, they
                                    stated that they relied on agency personnel to restore their system with
                                    new equipment and programs. These personnel informed us that they
                                    had prepared their plans using the guidance provided in FSA
                                    procedures. FSA headquarters personnel stated that they usually
                                    provide the required equipment to the disabled county.

                                    Relying on FSA headquarters personnel does not supplant the need for
                                    a formal contingency plan that outlines the actual steps that a county
                                    office must take to recover operations.

Recommendation 7

                                    Revise contingency plans for all county offices that will provide for
                                    achievable processes to be followed for continued operation of the
                                    application, if an emergency arises. Establish oversight of the plans to
                                    ensure that they accurately describe expected actions.

                                    FSA Response.

                                    In its August 1, 2005, response, FSA indicated that Finding 5
                                    (Contingency Plans Need Revision) appears to focus on the need for
                                    additional documentation covering all of the various options available
                                    to recover county office operations in the event of an emergency,
                                    service disruption, or hardware failure. While the FSA contingency
                                    plan for county offices does reflect the expected recovery actions to be

10
   Chapter 11.
11
   Chapter 11.6.
12
   The AS/400 System 36 is an integrated system where the AS/400 provides the platform and core operating system for the Advance System 36
emulation. System 36 is required for most state and county office legacy applications to operate.
USDA/OIG-A/03099-195-KC                                                                                                       Page 14
                   taken, it is true that options, other than the transfer of operations to an
                   alternate site, have been used in order to recover operations. These
                   options may include replacing failed or damaged hardware, moving
                   hardware from a disaster site to a suitable alternate location, or using
                   existing hardware at an alternate site to continue operations.
                   Step-by-step procedures covering each of these options, as well as
                   criteria for selecting an appropriate recovery option, should be
                   incorporated into an updated contingency plan.

                   FSA also disputed that the disk space capacity may not allow both
                   offices running the applications for two service centers in that two
                   copies of the operating system and application libraries are not
                   required. Only the data files from the disaster site need to be loaded
                   upon the system at the alternate site. Therefore, the actual amount of
                   space required for establishing the disaster site on the alternate system
                   will be significantly lower than the sum of the two disk space
                   utilization figures. Also, FSA has indicated they are already in
                   compliance with the recommendation; therefore, no further action is
                   needed.

                   OIG Position.

                   We were unable to accept management decision for Recommendation 7
                   without additional clarification regarding whether FSA will or has
                   issued step-by-step procedures covering each of the recovery options,
                   the criteria for selecting an appropriate recovery option, and how this
                   option should be incorporated into each county office updated
                   contingency plan. Also, information is needed detailing the procedures
                   to provide oversight of the plans to ensure that they accurately describe
                   expected actions along with the timeframes.




USDA/OIG-A/03099-195-KC                                                              Page 15
Scope and Methodology
                   Our audit was part of a nationwide audit of selected USDA
                   agencies and selected applications within these agencies. We
                   tested an application contained within the APSS to determine if
                   selected application system controls (manual or automated) are in
                   place and functioning effectively to ensure transactions are
                   properly authorized, completely processed, and accurately
                   processed. The APSS consists of price support loans, price
                   support loan deficiency payments, and price support graze out
                   payments.
                   We selected FSA’s price support loan application, based on the
                   size of the application and the type of processing it conducted.
                   We conducted our review through interviews, review of FSA
                   procedures and records, and observations.
                   To accomplish our audit objective, we performed the following
                   procedures:
                   •   Gained an understanding of the FSA IT environment;
                   •   Reviewed agency, Departmental, and other Federally
                       mandated IT security policies and procedures;
                   •   Interviewed responsible officials for managing the price
                       support loan application, and reviewed and analyzed FSA
                       records;
                   •   Performed detailed testing of FSA’s logical and physical
                       access controls for one mission-critical application, and
                       software controls by analyzing records and controls
                       established to ensure the security of FSA’s price support loan
                       application; and
                   •   Conducted testing at Kansas City, Missouri, Beacon Facility
                       and three county offices in three States.

                   Audit fieldwork was performed from February 2004 through
                   August 2004. The audit was conducted in accordance with
                   Government Auditing Standards.




USDA/OIG-A/03099-195-KC                                                            Page 16
Exhibit A – FSA Response
                           Exhibit A – Page 1 of 7




USDA/OIG-A/03099-195-KC                 Page 17
USDA/OIG-A/03099-195-KC   Page 18
USDA/OIG-A/03099-195-KC   Page 19
USDA/OIG-A/03099-195-KC   Page 20
USDA/OIG-A/03099-195-KC   Page 21
USDA/OIG-A/03099-195-KC   Page 22
USDA/OIG-A/03099-195-KC   Page 23
Informational copies of this report have been distributed to:

Administrator, FSA
    ATTN: Agency Liaison Officer                                (6)
Government Accountability Office                                (1)
Office of Management and Budget                                 (1)
Office of the Chief Financial Officer
     Director, Planning and Accountability Division             (1)
